                                                                                          Ofice of inspectorGeneral

                                                                                          U.S. Department of E~mdmdSecurity
                                                                                          1111 Broadway, Suite 1200



                                                                                         Homeland
                                                                                         Security
                                                       August 25,2uw


MEMORANDUM FOR:                        Karen E. Armes
                                       Acting Regional Director
                                       F E W , Regi
                                        R&,
FROM:                                  Robert J. I!&rico
                                       Director, &ant Program Management Au&t Division

SUBJECT:                               Audit of the Venturu County Flood Control District
                                       Ventura, California
                                       Public Assistunce Identlficution Number 111-91042
                                       F E M Disaster Number 1008-DR-CA
                                       A d i t Report Number DS-15-05

The Office of Inspector General (OIG) audited public assistance grant funds awarded to the Ventura
County Flood Control District, Ventura, California (District). The objective of the audit was to
determine whether the District expended and accounted for Federal Emergency Management
Agency (FEMA) funds according to federal regulations and FEMA guidelines.

The District received a public assistance grant award of $4.9 million from the California Ofice of
Emergency Services (OES), a FEMA grantee, far damage as result of the Northridge Earthquake that
occurred on January 17, 1994. The award provided 90 percent federal funding for 2 large projects
and 13 small projects.' The audit covered the period January 17, 1994, to July 15,2002, and included
a review of one large project with a total award of $4.7 million.

The OIG performed the audit under the authority of the Inspector General Act of 1978, as amended,
and according to Government Auditing standard^ issued by the Comptroller General of the United
States. The audit included a review of FEMA, OES, and District records, a judgmental sample of
project expenditures, and other auditing procedures considered necessary under the circumstances.

OIG determined that the District used and accounted for FEMA h d s according to the federal
regulations and FEMA guidelines. On August 24,2005, the OIG informed District, FEMA and OES
officials of the audit results. Since this report contains no recommendations, a response is not
required. Should you have any questions concerning this report, please contact me at (5 10) 627-
7011. Key contributors to this assignment were Humberto Melara, Ravi h a n d , and Michael Long.
                            -


1
    Federal regulations in effect at the time of the disaster set the large pmject threshold at $42,400.
